v\ ;v

s

v

i¥

supreme Court, U.sr
FILED

In t|ie
Supreme Court of tfie tHniteti states:

MAR 1 0 2021
OFFICE OFTHFni pdu-

DAVID MAURICE MILNER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for A Writ of Certiorari to the United
States Court ofAppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

David Maurice Milner
Pro Se Petitioner
Fed. Reg. No. 65724-380
FCI Phoenix
37910 North 45th Avenue
Phoenix, Arizona 85086

RECEIVED
MAR 1 7 2021

J-

■r

QUESTION PRESENTED
Whether the Fifth Circuit’s denial of a certificate of
appealability, where the district court ruled it lacked
jurisdiction to consider Mr. Milner’s Rule 59(e) motion for
reconsideration of the district court’s summary denial of
Mr. Milner’s § 2255 motion to vacate, on grounds that
Milner’s Rule 59 motion was barred as an impermissibly
successive § 2255 motion, is irreconcilable with this
Court’s holding in Banister v. Davis, 140 S.Ct. 1698
(2020), such that this Court should remand to the United
States Court of Appeals for the Fifth Circuit with
instructions to issue a certificate of appealability?

vt

■ii-

PARTIES TO THE PROCEEDINGS
There are no parties to the proceeding other than
those listed in the style of the case.
RELATED CASES
•

United States v. David Maurice Milner, No.
3:15-cr-01699-FM-l, U.S. District Court for the
Western District of Texas. Judgment entered Jan. 30,
2017.

•

United States v. David Maurice Milner, No.
17-50185, U.S. Court of Appeals for the Fifth Circuit.
Judgment entered June 12,2018.

•

David Maurice Milner v. United States, No. 3:19-cv110-FM, U.S. District Court for the Western District of
Texas. Judgment entered May 14, 2019.

•

United States v. David Maurice Milner, No.
19-50996, U.S. Court of Appeals for the Fifth Circuit.
Judgment entered Oct. 19,2020.

L

-111-

TABLE OF CONTENTS
Page
QUESTION PRESENTED.

i

PARTIES TO THE PROCEEDINGS

ii

RELATED CASES

ii

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

vi

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

2

CONSTITUTIONAL & STATUTORY PROVISIONS
INVOLVED............................................................

2

STATEMENT OF THE CASE

4

A.

Petitioner's §2255 Motion Properly Pled
and Adequately Supported Two Claims of
Ineffective Assistance of Counsel........... 4

B.

The District Court Summarily Denied the
Motion to Vacate, Denied a Certificate of
Appealability ("COA"), Denied Petitioner’s
Rule 59(e) Motion, and Denied COA on
That Subsequent Denial.
5

L

■iv

C.

The Fifth Circuit Denied COA

REASONS FOR GRANTING THE WRIT

7
7

ARGUMENT:
A.

The COA Standard

8

B.

Reasonable Jurists Could Debate or,
for that Matter, Agree that Relief is
Appropriate on Petitioner’s Sixth
Amendment Claims........................

9

C.

Reasonable Jurists Could Debate or,
for that Matter, Agree that Petitioner’s
Rule 59(e) Motion Was Not a Successive
§ 2255.................................................... 18

D.

This Court Should Summarily Reverse the
Fifth Circuit’s Order Denying COA....... 25

CONCLUSION

26

■v

INDEX OF APPENDICES
Appendix-A:
Judgment of the United States Court
of Appeals for the Fifth Circuit denying a certificate of
appealability. Dated: Oct. 19, 2020
A1
Appendix - B:
Order of the United States District
Court for the Western District of Texas. Dated: July 25,
2019
A2
Appendix - C:
Order of the United States District
Court for the Western District of Texas. Dated: May 14,
2019
A9

-VI-

TABLE OF AUTHORITIES
CASES

Page(s)

Banister v. Davis,
140 S.Ct. 1698 (2020)

7, 9,18, 24

Barefoot v. Estelle,
463 U.S. 880 (1983).

8,9

Glover v. United States,
531 U.S. 198 (2001).......

10,17

Leavitt v. Jane L.,
518 U.S. 137 (1996)

25

Maryland v. Dyson,
527 U.S. 465 (1999)..

25

Miller-El v. Cockrell,
537 U.S. 322 (2003)...

8,9

Schweiker v. Hansen,
450 U.S. 785 (1981)...

25

Slack v. McDaniel,
529 U.S. 473 (2000)
Strickland v. Washington,
466 U.S. 668 (1984).............

8
10,17

■vir

United States v. Bass,
536 U.S. 862 (2002)

25

United States v. Ibarra-Luna,
628 F.3d 712 (5th Cir. 2010)....

10

United States v. Wei Lin,

841 F.3d 823 (9th Cir. 2016)

16

STATUTES
18 U.S.C. § 1591

12,14,15, 16

18 U.S.C. § 1594

12,15,16

18 U.S.C. § 2241

16

28 U.S.C. § 1254

2

28 U.S.C. § 2106

25

28 U.S.C. § 2255

passim

28 U.S.C. § 2253(c)

8,9

USSG SECTIONS
§ 1B1.2

13, 20

§ 2A3.1

16,19, 20

s.

■vill*

§ 2G1.1

14,15,16

§ 2G1.3

14

§ 2X1.1

15

I. '*•'

-1OPINIONS BELOW
The Judgment of the United States Court of Appeals
for the Fifth Circuit denying Petitioner’s motion for
certificate of appealability is unpublished and may be
found at USCA Case No. 19-50996; United States of
America v. David Maurice Milner (Oct. 19, 2020)
{Appendix - Al).
The Order of the United States District Court for the
Western District of Texas denying Petitioner’s motion for
relief from judgment and denying him a certificate of
appealability is unpublished and may be found at USDC
Case No. 3:19-cv-110; David Maurice Milner v. United
States ofAmerica (July 25,2019) {Appendix - A2).
The Order of the United States District Court for the
Western District of Texas denying Petitioner’s motion to
vacate and denying him a certificate of appealability is
unpublished and maybe found at USDC Case No. 3:19-cv110; David Maurice Milner v. United States ofAmerica
(May 14, 2019) {Appendix - A9).

t. *'

-2-

STATEMENT OF .JURISDICTION
The order denying Petitioner's motion for certificate
of appealability was issued on October 19, 2020. This
petition is timely filed pursuant to Sup. Ct. R. 13 and this
Court's Order dated March 19, 2020, extending the
deadline to file any petition for a writ of certiorari due on
or after the date of the order to 150 days from the date of
the lower court judgment, in light of the ongoing public
health concerns relating to COVID-19. This Court's
jurisdiction rests on 28 U.S.C. §1254(1).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves a federal criminal defendant’s
constitutional rights under the Fifth and Sixth
Amendments. The Fifth Amendment provides in pertinent
part:
No person shall be . . . deprived of life, liberty, or
property, without due process of law.
The Sixth Amendment provides in pertinent part:
In all criminal prosecutions, the accused shall enjoy
the right to ... have the assistance of counsel for his
defense.
This case also involves the application of 28 U.S.C. §

-3-

2253(c). 28 U.S.C. § 2253(c) provides that:
(1) Unless a circuit justice or judge issues a
certificate of appealability, an appeal may not be
taken to the court of appeals from—
(B) the final order in a proceeding under
section 2255.
(2) A certificate of appealability may issue under
paragraph (1) only if the applicant has made a
substantial showing of the denial of a constitutional
right.

-4STATEMENT OF THE CASE
A. Petitioner’s §2255 Motion Properly Pled and
Adequately Supported Two Claims of Ineffective
Assistance of Counsel.
On April 12,2019, Mr. Milner filed a timely collateral
attack on the judgment of the district court, via the
provisions of 28 U.S.C. §2255 (f)(1) ("§2255"). [DE #92],
Mr. Milner contemporaneously filed a supporting
memorandum of law [DE #93] and moved the district
court to expand the record to include his declaration,
verified under penalty of perjury, in support of his Motion
to Vacate under 28 U.S.C. §2255. [DE #94].
Mr. Milner's §2255 contained two grounds for relief. In
ground one, Mr. Milner showed that he was deprived of the
effective assistance of counsel in connection with his
sentencing. [DE #92, pp. 4; DE #93, pp. 6-24; DE #94
11113-5], This showing consisted of the reality that Mr.
Milner's counsel was constitutionally deficient for failing
to object to the following recommendations contained in
Mr. Milner's PSR: a) the inclusion of offense group III,
which was based on conduct and a victim outside the
scope of the offense to which Mr. Milner pleaded guilty;
and b) the unwarranted cross-references recommended
for each offense group. Mr. Milner further showed that
counsel's failure to timely propound objections to these
recommendations, and to argue and submit evidence in
support of these objections at Mr. Milner's sentencing, was
professionally unreasonable and fell below the minimum
level of competence required of criminal defense counsel

-5by the Sixth Amendment. [DE #93, pp. 7-22]. The showing
further consisted of the reasonable probability that the
District Court would have sustained those objections,
adopted a dramatically lower advisory guideline range,
and Mr. Milner's sentence would have been less severe.
Instead, with counsel's acquiescence, Mr. Milner was
sentenced based on an erroneously inflated advisory
guideline range of imprisonment. [DE #93, pp. 22-24].
Ground Two was based on Mr. Milner being deprived
of the effective assistance of counsel on appeal. [DE #92,
pp. 5; DE #93, pp. 24-26]. Mr. Milner argued that appellate
counsel was constitutionally deficient for failingto appeal
Mr. Milner's sentencing based on the grounds set forth in
ground one. [DE #93, pp. 25]. Mr. Milner further showed
that this deficient performance prejudiced him, in that had
counsel presented the issues described in ground one,
there is a reasonable probability that the Fifth Circuit
would have remanded for resentencing without both the
inapplicable "Group III" calculation and the inadequately
supported cross-references. Id.
B. The District Court Summarily Denied the Motion
to Vacate. Denied a Certificate of Appealability
(“COA”). Denied Petitioner’s Rule 59(e) Motion.
and Denied COA on That Subsequent Denial.
On May 14, 2019, the District Court signed its Order
[DE #95], denying in all respects Mr. Milner's then
pending Motion to Vacate filed pursuant to 28 U.S.C.
§2255, denying a certificate of appealability ("COA") and

-6-

mooting Mr. Milner's pending motion to expand the
record. Id.
On June 5, 2019, Mr. Milner submitted a motion to
alter or amend the District Court's Judgment denying his
motion under 28 U.S.C. §2255, entered on May 14, 2019,
under Federal Rule of Civil Procedure 59(e)
("reconsideration motion"). [DE #99, p. 8 - featuring
notice of timely filing under the prison mailbox rule].
Liberally construed, Mr. Milner sought reconsideration
based on the following defects in the §2255 proceeding: 1)
the failure of the District Court to provide the pro se
prisoner movant with notice that it viewed his §2255 as
ripe for summary dismissal, Id., HU 2, 7; 2) the District
Court's ruling that Mr. Milner's motion to expand the
record was moot, Id., H 8; 3) the failure of the District
Court to address Mr. Milner's second ground for relief, as
raised or attempted to be raised by the pro se prisoner
movant, Id., HU 6, 7; and 4) that the erroneous decision to
deny ground one was premature and worked a
miscarriage of justice. Id., HU 2-5.
On July 25,2019, the District Court dismissed without
prejudice Mr. Milner's motion to alter or amend judgment,
on grounds that it was an impermissibly successive §2255
motion, and again denied COA. [DE #100]. Mr. Milner
timely appealed and was granted in forma pauperis status
on appeal.

-7-

C. The Fifth Circuit Denied COA.
On October 19, 2020, the United States Court of
Appeals for the Fifth Circuit denied COA. [App. A, Al\
This petition is timely submitted, within 150 days of the
Fifth Circuit’s October 19, 2020 judgment denying COA.
\App. A],

REASONS FOR GRANTING THE WRIT
This Court should grant the writ of certiorari. At a
minimum, this Court should order summary reversal
because in denying a certificate of appealability, the Fifth
Circuit has so far departed from the accepted and usual
course of judicial proceedings and sanctioned such a
departure by the district court, as to call for an exercise of
this Court’s supervisory power. This is true because the
district court’s procedural ruling, findingthat Petitioner’s
motion to alter or amend judgment under Rule 59(e), on
grounds that it was an impermissibly successive §2255
motion, is in direct conflict with this Court’s holding in
Banister v. Davis, 140 S.Ct. 1698 (2020) and was thus
clearly debatable amongst jurists of reason under
controlling precedent - Banister was decided while Mr.
Milner’s application for COA was pending in the Fifth
Circuit and Mr. Milner, who’d noted the grant of certiorari
in his application, submitted a Rule 28(j) letter addressing
the import of the Banister decision to his argument for
COA Additionally, Petitioner’s claims of ineffective
assistance of counsel provided the required constitutional
dimension for a certificate of appealability.

-8-

A. The Certificate of Appealability Standard.
To obtain a certificate of appealability, a habeas
petitioner must make a “substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c) (2). To satisfy
this standard, the petitioner need not demonstrate that he
would prevail on the merits. Rather, he “must ‘[s]how
reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been resolved
in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further.’”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (quoting
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quoting
Barefoot v. Estelle, 463 U.S. 880, 893 n.4 (1983)) (some
internal quotation marks omitted)).
“[A] COA does not require a showing that the appeal
will succeed.”Id. at 337. As this Court has explained: “We
do not require petitioner to prove, before the issuance of
a COA that some jurists would grant the petition for
habeas corpus. Indeed, a claim can be debatable even
though every jurist of reason might agree, after the COA
has been granted and the case has received full
consideration, that petitioner will not prevail.” Id. at 338.
In Slack, 529 U.S. at 478, this Court held:
when the district court denies a
habeas petition on procedural
grounds without reaching the
prisoner's underlying constitutional
claim, a COA should issue (and an
appeal of the district court's order

(

-9may be taken) if the prisoner shows,
at least, that jurists of reason would
find it debatable whether the
petition states a valid claim of the
denial of a constitutional right, and
that jurists of reason would find it
debatable whether the district court
was correct in its procedural ruling.

r

Reasonable jurists could debate the merits of
Petitioner's Sixth Amendment claims that he was denied
the effective assistance of counsel. Additionally,
reasonable jurists would agree that the district court’s
procedural ruling, finding that Petitioner’s motion to alter
or amend judgment under Rule 59(e), on grounds that it
was an impermissibly successive §2255 motion, is in direct
conflict with this Court’s ho\&mgw.Banister v. Davis, 140
S.Ct. 1698 (2020) and was thus clearly debatable amongst
jurists of reason under controlling precedent. The legal
argument, set forth below, demonstrates that Petitioner
has satisfied the § 2253(c) standard because, at a
minimum, both the constitutional question and the
procedural one are “debatable among jurists of reason.”
Miller-El, 537 U.S. at 336 (quoting Barefoot, 463 U.S. at
893 n.4).
B. Reasonable Jurists Could Debate or. for that
Matter. Agree that Relief is Appropriate on
Petitioner’s Sixth Amendment Claims.
Petitioner’s Sixth Amendment claims meet the
standard for a certificate of appealability. Counsel

-10provides ineffective assistance when he fails to propound
meritorious objections at a criminal defendant’s
sentencing, such the defendant is sentenced based on an
erroneously inflated USSG range. Strickland v.
Washington, 466 U.S. 668 (1984); Glover v. United
States, 531 U.S. 198 (2001); see also United States v.
Ibarra-Luna, 628 F.3d 712, 718 (5th Cir. 2010).
The record demonstrated that counsel was
constitutionally deficient for failing to object to the
followingrecommendations contained in Mr. Milner's PSR:
a) the inclusion of offense group ID, which was based on
conduct and a victim outside the scope of the offense to
which Mr. Milner pleaded guilty; and b) the unwarranted
cross-references recommended for each offense group.
Counsel's failure to timely propound objections to these
recommendations, and to argue and submit evidence in
support of these objections at Mr. Milner's sentencing, was
professionally unreasonable and fell below the minimum
level of competence required of criminal defense counsel
by the Sixth Amendment.
Counsel was constitutionally deficient for failing to
object to the PSR recommendation that Mr. Milner's
offense involved a third offense group, which fell outside
the scope of the offense to which Mr. Milner had pleaded
guilty. This recommendation was based on objects of the
conspiracy count to which Mr. Milner had not pleaded
guilty. Specifically, the plea agreement and record of the
change of plea hearing both establish that Mr. Milner
pleaded guilty to a single count of conspiracy with only
two objects, neither of which involved a minor victim.

' .4

-11MR. NEWAZ: . . . Mr. Milner, you
have been charged by the grand
jury in the Western District of
Texas in a four-count superseding
indictment. However, you have
agreed to plead guilty to count four
~ on objects a) and b), specifically
of count four - of the superseding
indictment.
The indictment charges you as
follows: Beginning on or about
September 15,2013, and continuing
through on or about August 13,
2015, in the Western District of
Texas and elsewhere, Defendant
David Milner a/k/a "D", together
with others both known and
unknown to the grand jury,
knowingly conspired, combined,
confederated, and agreed with
each other and others known and
unknown to the grand jury to
commit certain offenses and violate
certain laws of the United States,
to wit, a), to knowingly, in and
affecting interstate commerce,
recruit, entice, harbor, transport,
provide, obtain and maintain
persons, knowing or in reckless
disregard of the fact that means of
force, threats of force, fraud and

-12coercion, or any combination
thereof, would be used to cause the
person to engage in a commercial
sex act, in violation of Title 18,
United States Code, Sections
1591(a)(1) and (b)(1).
b), to knowingly benefit financially
or by receiving anything of value
from participation in a venture
which is engaged in recruiting,
enticing, harboring, transporting,
providing and maintainingpersons
in and affecting interstate
commerce, knowing or in reckless
disregard of the fact that means of
force, threats of force, fraud and
coercion or any combination
thereof would be used to cause the
person to engage in a commercial
sex act, in violation of Title 18,
United States Code, Sections
1591(a)(2) and (b)(1), all in
violation of Title 18, United States
Code, Section 1594(c).
Do you understand what you are
charged with and what you are
pleading guilty to?
THE DEFENDANT: Yes, sir.

•13[DE #81, pp. 5-6].
The PSR recommended that Mr. Milner's guidelines
offense calculations include "Group III" for conspiracy to
sex traffic (victim J.G. - minor), a probation created
pseudo-offense, to which Mr. Milner had not pleaded
guilty. Additionally, the PSR created pseudo-offense did
not involve the same victims, had additional elements, and
conviction for the PSR created offense would have
triggered a mandatory minimum sentence, not applicable
to the crime to which Mr. Milner had pleaded guilty.
Finally, the probation created pseudo-offense had a
substantially higher offense level than the offense to which
Mr. Milner had pleaded guilty and further inflated the
recommended guidelines range because it added an
additional unit for grouping purposes.
Minimally competent counsel would have objected to
this erroneous inflation of Mr. Milner's guidelines range
on grounds that "Group III" was based on a crime for
which Mr. Milner had not been convicted and which he had
not admitted to conspiring to commit in his plea colloquy
or in his plea agreement, which is the threshold
requirement under §§ IB 1.2(d).
Counsel was also constitutionally deficient for failing
to object to unwarranted cross-references, which inflated
the base offense level for each of the offense groups set
out in the PSR. First, counsel was deficient for failing to
object to the PSR recommendation that Mr. Milner's base
offense level for offense "Group III" be set at level 34,
because "the defendant was convicted under 18 U.S.C.

*

-14§1591(b)(l)." Mr. Milner was not convicted under that
section and, as the relevant guidelines and persuasive
precedent demonstrate, Mr. Milner's base offense level
should not have been set as if he had. U.S.S.G.
§2G1.3(a)(l); United States v. Wei Lin, 841 F.3d823 (9th
Cir. 2016) (interpreting similar language in §2G1.1(a)(1)
to require conviction under §1591 (b)(1) as a prerequisite
for application of base offense level 34).
U.S.S.G. §2G1.3(a)(l) states in pertinent part:
(a)
Base Offense Level:
(1)
34, if the defendant was
convicted under 18 U.S.C. §
1591(b)(1);
(2)
30, if the defendant was
convicted under 18 U.S.C. §
1591(b)(2);
Id.
Mr. Milner's offense of conviction, a conspiracy to sex
traffic persons, in violation of 18 U.S.C. §1594(c),
mandated that his base offense level be set at 14. See
U.S.S.G. §2Gl.l(a).
U.S.S.G. §2Gl.l(a), reads:
(a)

Base Offense Level:

-1534, if the offense of
(1)
convictionis 18U.S.C. § 1591(b)(1);
or
(2)

14, otherwise

Id.
The Ninth Circuit addressed this exact situation in
Wei Lin, supra, rejecting the PSR author's interpretation
in this case - which was to look to the true offense conduct
as he or she may have found it. Wei Lin was an appeal
from a sentence imposed after Lin pled guilty to
conspiracy to commit sex trafficking in violation of 18
U.S.C. § 1594(c) and the remaining substantive sex
trafficking offenses charged under 18 U.S.C. 1591(a) were
dismissed. Lin attempted to withdraw his plea after advice
from his attorney that his base offense level was 14. Id.
The district court denied his motion to withdraw his plea,
and sentenced him to 235 months in prison. Id.
The Ninth Circuit held that the district court erred in
calculating Lin's base offense level as 34 rather than 14.
Id. It noted that "the base offense level for a conspiracy to
commit sex trafficking is the same as the base offense
level for the underlying substantive sex trafficking crime."
Id. (citing U.S.S.G. § 2X1.1(a)). It concluded then that
"[t]he base offense level for sex trafficking is 34 ‘if the
offense of conviction is 18 U.S.C. § 1591(b)(1)' ...
[otherwise, the base offense level is 14." Id. (quoting
U.S.S.G. § 2G1.1(a)(1)) and citing U.S.S.G. § 2Gl.l(a)(2).
The Ninth Circuit held in Wei Lin, that "U.S.S.G. §

-162G1.1(a)(1) only applies to defendants who are subject to
a fifteen-year mandatory minimum sentence under 18
U.S.C. § 1591(b)(1). Since Lin was not subject to 18 U.S.C.
§ 1591(b)(l)'s mandatory minimum, the district court
erred in applying § 2G1.1(a)(1) to Lin." Wei Lin, at 827.
As in Wei Lin, Mr. Milner pleaded guilty to conspiracy
to commit sex trafficking in violation of 18 U.S.C. §
1594(c). Like Lin, Mr. Milner was sentenced using a base
offense level of 34, which, based on the plain language of
the guidelines and the Ninth Circuit's holding, which
predates the publication of his PSR and his sentencing,
was a clear error of law. Counsel's failure to properly
object to this error in Mr. Milner's PSR and to advance
such objection at sentencing was constitutionally
deficient. The same is true with respect to counsel's
failure to object to the unapplied recommendations that
the appropriate base offense level for "Group I" and "Group
II" under U.S.S.G. §2Gl.l(a) would be 34.
Finally, counsel was constitutionally deficient for
failing to object to the inadequately supported
cross-references to § 2A3.1 recommended for "Group I"
and "Group II." Minimally competent counsel would have
objected to the recommended cross-reference on the basis
that Mr. Milner had not committed criminal sexual abuse
as defined in §2241, by virtue of the reality that he had not
committed a sex act with the victims. Thus, Mr. Milner's
base offense level for all groups involved in his offense of
conviction, a conspiracy to sex traffic persons, in violation
of 18 U.S.C. §1594(c), should have been set at 14. See
U.S.S.G. §2Gl.l(a). Counsel was constitutionally deficient

-17for failing to object to the erroneously inflated base
offense levels contained in the PSR and for failing to
advance such argument at sentencing.
The record established a reasonable probability that
Mr. Milner’s sentence wouldhave been dramatically lower,
but for these deficiencies. This is true because: 1) the
objections were meritorious and the sentencing court
wouldhave, therefore, sustained them; 2) after sustaining
those objections, Mr. Milner would have faced an advisory
guideline range of 41-51 months' imprisonment, rather
than the guideline range of imprisonment of 360 months'
to Life imprisonment which was found based on the PSR;
3) this difference in USSG starting points for the court’s
sentencing calculus in this case constitutes prejudice
under Glover and Strickland.
The district court summarily denied this claim,
without warningthe pro se prisoner movant that the Court
viewed his motion to vacate as ripe for summary dismissal
and without hearing from the United States.
The record also demonstrated that Mr. Milner’s claim
that he was denied the effective assistance of counsel on
appeal, based on appellate counsel’s failure to raise the
same arguments which sentencing counsel should have
raised as objections, as grounds to appeal the resulting
sentence, was meritorious. However, the district court
completely misconstrued Mr. Milner's ground two claim of
ineffective assistance of appellate counsel, which was
based on appellate counsel's failure to present the same
guideline objections as grounds for appeal, denying that

-18claim on grounds that claims of ineffective assistance of
counsel should not usually be presented on direct review.
The record demonstrates that Mr. Milner made aprima
facie showing of ineffective assistance of counsel in his
motion to vacate and supporting papers, sufficient to
establish the requisite constitutional dimension for
issuance of COA.
C. Reasonable Jurists Could Debate or. for that
Matter. Agree that Petitioner’s Rule 59tel Motion
Was Not a Successive § 2255.
The district court’s procedural ruling, finding that
Petitioner’s motion to alter or amend judgment under Rule
59(e) was an impermissibly successive §2255 motion, is
more than debatable, it is simply a error of law, in
irreconcilable conflict with this Court’s holding in
Banister v. Davis, 140 S.Ct. 1698 (2020) and was thus
clearly debatable amongst jurists of reason under
controlling precedent. Mr. Milner’s motion to alter or
amend judgment under Rule 59(e) argued:
The Court's decision to summarily
deny and dismiss Mr. Milner's
claims must be reconsidered as it is
based on, at least, two clear errors
and will result in a miscarriage of
justice - the erroneous deprivation
of post-conviction relief where a
movant has been deprived of his
right to the effective assistance of

-19counsel.
First, with regard to
ground one, the Court erroneously
concludes that Mr. Milner cannot
establish prejudice from counsel's
failure to object to various guideline
errors in the PSR. Second, the Court
completely misconstrues Mr.
Milner's ground two claim of
ineffective assistance of appellate
counsel, which was based on
appellate counsel's failure to
present the same guideline
objections as grounds for appeal,
denying that claim on grounds that
claims of ineffective assistance of
counsel should not usually be
presented on direct review.
The Court stated it's rationale for
summarily denying ground one on
lack of prejudice from counsel's
failure to propound necessary and
appropriate objections in
preparation for and at sentencing as
follows:
If the Court had granted Milner's
objections to the inclusion of Group
III, cross-references, and
enhancements in calculating his
sentence and sentenced Milner
under Sentencing Guideline § 2A3.1

-20-

(a)(2) based on a total offense level
of 30 and a criminal history
category of V - Milner's guideline
imprisonment range would still have
been 151 to 188 months'
imprisonment. His 180-month
sentence was within this sentencing
range.
Consequently, Milner cannot show
that he would have received a lesser
sentence had his counsel objected to
the inclusion in the calculation of
his sentence of Group III, pursuant
to Sentencing Guideline §lB1.2(d),
or the cross-references
recommended for Group I and
Group II, pursuant to Sentencing
Guideline § 2A3.1. Thus, he cannot
show his counsel's performance was
deficient and the deficient
performance prejudiced the defense.
[DE #95, p. 13].
This rationale is a clear error,
conflicts with Fifth Circuit
precedent,
and warrants
reconsideration. The reality that the
erroneously inflated guideline range
was the starting point for the
Court's ultimate sentencing
selection is emphasized by the

-21Court's explanation of its denial of
Mr. Milner's ground one claim, i.e.,
that "it departed well below the
guideline range and sentenced
Milner to 180 months' imprisonment
- or half of the bottom of the
guidelines range." [DE #95, p. 13]. It
is thus clear error to find that Mr.
Milner's pro se showing of prejudice
is conclusively foreclosed by the
record, such that summary denial
and dismissal is permissible.
The Court's complete
misconstruction of the claim Mr.
Milner raised or attempted to raise
in ground two, i.e., that he was
deprived of the effective assistance
of counsel by appellate counsel's
failure to challenge the sentence
imposed on the same bases which
sentencing counsel should have
raised as objections, is clear from
the face of the Court's opinion:
Milner claims his appellate counsel
was constitutionally deficient for
failing to appeal his sentence based
on his trial counsel's failure to
object to the PSR... he cannot show
his appellate counsel prejudiced his
cause by failingto raise a claim that

-22-

his trial counsel provided ineffective
assistance. [DE #95, pp. 16-17].
Had this Court provided the
procedural process which was due
Mr. Milner's motion to vacate including notice that the Court
considered the motion ripe for
summary dismissal or ordering an
answer from the United States
this Court's clear error could have
been averted, as the Court would
have enjoyed the benefit of
adversarial briefing by the parties,
or a supplemental pleading from Mr.
Milner. At the very least, this
Honorable Court should reconsider
this portion of its opinion and
amend the same to reflect
consideration of the claim which Mr.
Milner actually raised, or attempted
to raise, in ground two, i.e, that
appellate counsel was
constitutionally ineffective for
failing to appeal the sentence
imposed as being based on the
substantial guideline errors
described in ground one. See, DE #
93, pp. 11-22, 25.
The Court's decision to deny, as
moot, Mr. Milner's motion to expand

-23-

the record to include his declaration
- which provides the only
description of his off-the-record
communications with sentencing
counsel - must be reconsidered, as
it will deprive the appellate court of
information essential to
determining, first, whether a
certificate of appealability ("COA")
is warranted, and thereafter to
assessing the merits of Mr. Milner's
appeal of this court's summary
denial of his motion to vacate.
Failing to correct this error will
work a separate and distinct
miscarriage of justice upon Mr.
Milner, as he will be deprived of his
right to meaningful appellate review
since the reviewing court will lack
the record essential to providing
such review.
DE #99, pp. 3-7.
The district court erroneously ruled that it lacked
jurisdiction to alter or amend judgment as requested
because Mr. Milner’s Rule 59(e) motion was an
impermissibly successive § 2255:
Because Milner's Rule 59(e) motion
attacks the Court's previous
resolution of his claims on their

-24merits and there is nothing in the
record to indicate that Milner
sought and received the
appropriate certification from the
Fifth Circuit Court of Appeals prior
to filing his Rule 59(e) motion the
Court finds it is without jurisdiction
to entertain it.
DE #100, p. 5.
This ruling constitutes a clear error as controlling
precedent from this Court holds that a Rule 59(e) motion
to alter or amend a judgement in a habeas case is not a
successive habeas petition. Banister v. Davis, 140 S. Ct.
1698,1705,207 L. Ed. 2d 58 (2020) (“We granted certiorari
to resolve a Circuit split about whether a Rule 59(e)
motion to alter or amend a habeas court's judgment
counts as a second or successive habeas application. We
hold it does not, and reverse.”). The district court's ruling
dismissing Petitioner's Rule 59(e) motion for lack of
jurisdiction constitutes a clear error or at a minimum
reasonable jurists could debate whether the ruling
constitutes a clear error, entitling Petitioner to a COA on
this issue.
The Fifth Circuit denied Petitioner a COA in a cursory
one sentence Order. [App. A, Al\ Both the district court’s
erroneous procedural ruling and the Fifth Circuit’s
cursory denial of COA are unsupportable on the record
and under this Court’s holding in Banister v. Davis, 140
S. Ct. 1698, 1705, 207 L. Ed. 2d 58 (2020). As reasonable

%4

- 25jurists could debate the appropriateness of the district
court’s decision finding that it lacked jurisdiction to
consider Petitioner’s Rule 59(e) motion, as described,
supra, a COA should issue as to this question.
D. This Court Should Summarily Reverse the
Fifth Circuit’s Order Denying COA.
This Court has authority to “reverse any judgment”
brought before it and “remand the cause and direct entry
of such appropriate judgment... or require such further
proceedings to be had as may be just under the
circumstances.” 28 U.S.C. § 2106. Summary reversals are
“usually reserved by this Court for situations in which the
law is well settled and stable, the facts are not in dispute,
and the decision below is clearly in error.” Schweiker v.
Hansen, 450 U.S. 785, 791 (1981) (Marshall, J.,
dissenting); see, e.g., United States v. Bass, 536 U.S. 862,
864 (2002) (ordering summary reversal because the
decision below was “contrary to” established law);
Maryland v. Dyson, 527 U.S. 465, 467 (1999) (ordering
summary reversal); Leavitt v. JaneL., 518 U.S. 137,145
(1996) (ordering summary reversal where the decision
under review was “plainly wrong”). The Fifth Circuit's
order denying Petitioner's motion for a certificate of
appealability is clearly wrong. Petitioner clearly satisfied
the standard for a certificate of appealability. This case
warrants summary reversal.

p

V

-26-

CONCLUSION
Based upon the foregoing petition, the Court should
grant a writ of certiorari to the United States Court of
Appeals for the Fifth Circuit, vacate the Fifth Circuit’s
order denying COA and remand the matter to the Fifth
Circuit with instructions to grant COA.
t>fully\submitted,
da\to maurice Milner

Pro Se Petitioner
Fed. Reg. No. 65724-380
FCI Phoenix
37910 North 45th Avenue
Phoenix, Arizona 85086
., 2021

